    Semiannual Report
     to the Congress




Office of Inspector General
           for the
Railroad Retirement Board


April 1, 2008 to September 30, 2008
TABLE OF CONTENTS

INTRODUCTION

Railroad Retirement Board                                 1

Office of Inspector General                               2

EXECUTIVE SUMMARY

Audit/Evaluation Activities                               3

Investigative Activities                                  5

Investigative Accomplishments                             8

APRIL 1, 2008 – SEPTEMBER 30, 2008 ACCOMPLISHMENTS

Office of Audit                                           9
Implementation of Selected Requirements for
Government Charge Card Programs at the RRB                9
Evaluation of the Information Security for
the RRB’s Financial Interchange Major Application         11
Fiscal Year 2008 Evaluation of Information Security
at the RRB                                                12
Evaluation of the RRB Medicare Contractor’s
Information Security                                      16
Management Decisions and Implementation                   18

Office of Investigations                                  19
Investigative Caseload Data                               19
Investigative Tools                                       20
Current Caseload                                          21

Representative Investigations
Disability Benefit Investigations                         22
Unemployment & Sickness Insurance Investigations          25
Retirement/Survivor and Representative Payee
Benefit Investigations                                    27
Railroad Retirement Board Medicare Investigations         30
Employee Misconduct and Threats Against Employees         31
Civil Enforcement Results                                 33

Hotline Calls                                             34
Legislative & Regulatory Review                           35
Outreach                                                  39



Railroad Retirement Board – Office of Inspector General
APPENDICES

(A) Office of Inspector General Reports Issued              43
(B) Inspector General Issued Reports with
       Questioned Costs                                     44
    Inspector General Issued Reports with Recommendations
       that Funds Be Put to Better Use                      45
(C) Report on Receivables, Waivers and Recoveries
       Office of Investigations                             46
       Office of Audit                                      47
(D) RRB Management Reports                                  48
(E) Reporting Requirements                                  54
(F) Acronyms                                                56
(G) Legal Citations                                         58




Railroad Retirement Board – Office of Inspector General
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           INTRODUCTION
                                                                               The RRB is an
           Railroad Retirement Board                                           independent
                                                                               agency in the
    The Railroad Retirement Board (RRB) is an independent agency in the        executive branch
                                                                               of the federal
    executive branch of the federal government. The Board consists of
                                                                               government.
    three members who are appointed by the President of the United
    States with the advice and consent of the Senate. One Board member
    is appointed upon the recommendation of railroad employers, another
    member is appointed upon the recommendation of railroad labor
    organizations and the third, who is the Chairman, is appointed to
    represent the public’s interest. Board Members’ terms are five years in
    length and expire in staggered years.

    The agency administers comprehensive disability, retirement-survivor       According to
    and unemployment-sickness insurance benefit programs for the               preliminary fiscal
    nation's railroad workers and their families. These programs are           year 2008
    codified under the Railroad Retirement Act, 45 U.S.C. § 231, et. seq.      statistics, RRB
                                                                               paid just over
    and the Railroad Unemployment Insurance Act, 45 U.S.C. § 351 et.
                                                                               $10 billion in
    seq., respectively. The RRB also has administrative responsibilities for   retirement and
    certain benefit payments under the Social Security Act and administers     survivor benefits
    Medicare Part B, the physician service aspect of the Medicare program,     to roughly
    for qualified railroad beneficiaries.                                      596,000
                                                                               beneficiaries.
    The agency’s central mission is to pay accurate and timely benefits.
    According to preliminary fiscal year (FY) 2008 statistics, RRB paid just
    over $10 billion in retirement and survivor benefits to roughly 596,000
    beneficiaries. RRB also paid more than $78 million in net
    unemployment and sickness insurance benefits to approximately
    28,594 claimants during the benefit year ending June 30, 2008. During
    FY 2008, the Railroad Medicare Part B carrier, Palmetto GBA, paid
    approximately $844 million in medical insurance benefits for roughly       During fiscal
    485,948 beneficiaries.                                                     year 2008, the
                                                                               Railroad
                                                                               Medicare Part B
                                                                               carrier, Palmetto
                                                                               GBA, paid
                                                                               approximately
                                                                               $844 million in
                                                                               medical
                                                                               insurance
                                                                               benefits.




       Railroad Retirement Board – Office of Inspector General             1
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                             Office of Inspector General
The Inspector         The Inspector General is a Presidential Appointee who serves as an
General for the       independent and objective voice to both the Board and the Congress.
Railroad              It is the Inspector General’s responsibility to promote economy,
Retirement Board      efficiency and effectiveness in the RRB’s programs. To that end, the
is a Presidential
                      Office of Inspector General (OIG) conducts audits/evaluations,
Appointee who
serves as an
                      management reviews and inspections of RRB programs and
independent and       operations. As a product of their efforts, OIG provides
objective voice to    recommendations for agency improvement to management. The OIG
both the Board        also identifies and investigates cases of waste, fraud and abuse in RRB
and the Congress.     programs. The OIG works closely with federal prosecutors and makes
                      the appropriate referrals for criminal prosecution, civil prosecution or
                      monetary recovery.

                      The OIG has three operational components: the immediate Office of
                      the Inspector General; the Office of Audit; and the Office of
The Office of         Investigations. OIG conducts operations from several locations: the
Inspector General
                      headquarters of the RRB in Chicago, Illinois; an investigative field office
conducts
audits/evaluations,   in Philadelphia, Pennsylvania; and domicile investigative offices in
management            Arlington, Virginia and San Diego, California.
reviews and
inspections of        The health and welfare of our nation’s railroad workers and their
RRB programs          families rely on the economy, efficiency and effectiveness in the RRB’s
and operations.       programs.


The Office of
Inspector General
has three
operational
components: the
immediate Office
of the Inspector
General, the Office
of Audit and the
Office of
Investigations.




                         Railroad Retirement Board – Office of Inspector General                2
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



            EXECUTIVE SUMMARY
                                                                                  The Office of
           Audit/Evaluation Activities                                            Audits conducts
                                                                                  financial,
    The United States Railroad Retirement Board, Office of Inspector              performance and
                                                                                  compliance
    General – Office of Audit (OA) conducts financial, performance and
                                                                                  audits.
    compliance audits/evaluations. During this reporting period, OA
    completed audits/evaluations relating to the RRB’s charge card
    program, RRB’s financial interchange major application information
    security and information security for the RRB and their Medicare Part B
    contractor.
                                                                                  During this
    During this reporting period, OA also began their audit of the agency’s       reporting period,
    FY 2008 financial statement. Previous Congressional report language           the Office of Audit
    directed the OIG to perform their financial statement audit in-house          completed
                                                                                  audits/evaluations
    using OIG staff. OA conducts the financial statement audit with               relating to the
    technical assistance from contracted actuarial specialists.                   RRB’s charge
                                                                                  card program,
    On May 14, 2008, OA published the results for their audit of the RRB’s        RRB’s financial
    implementation of selected requirements for government charge card            interchange major
                                                                                  application
    programs as established by Appendix B of the Office of Management             information
    and Budget’s Circular A-123, “Improving the Management of                     security and
    Government Charge Card Programs” (Appendix B). The goal of                    information
    Appendix B is to maximize benefits to the federal government when             security for the
    using government charge cards to pay for goods and services in                RRB and their
                                                                                  Medicare Part B
    support of official federal missions. The scope of this audit consisted of    contractor.
    RRB travel and purchase card activities as billed to the agency during
    October 2005 through April 2007. OA concluded that RRB has
    experienced some delays in implementing the requirements of
    Appendix B. Management accepted all five audit recommendations.

    OA published their results entitled Evaluation of the Information
    Security for the Railroad Retirement Board’s Financial Interchange
    Major Application on September 26, 2008. OA concluded the agency
    still needs to strengthen application-level controls in the financial
    interchange major application system. It also disclosed weaknesses in         The Office of
    access controls, contingency planning, systems development, systems           Audit also began
    documentation and asset inventory. Management concurred with all 11           their audit of the
                                                                                  agency’s fiscal
    recommendations. The full report included information protected from
                                                                                  year 2008
    disclosure and has been designated for limited distribution pursuant to       financial
    the Freedom of Information Act, 5 U.S.C. § 552.                               statement.



       Railroad Retirement Board – Office of Inspector General                3
                         Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                        OA’s evaluation of information security at the RRB was conducted
                        pursuant to Title III of the E-Government Act of 2002 which is
During this
                        commonly known as the Federal Information Security Management Act
reporting period,
the Office of Audit     (FISMA). The evaluation’s objective was to assess the adequacy of the
evaluated the RRB       RRB’s information security program. Previous evaluations reported
Medicare                weaknesses throughout RRB’s information security program, significant
contractor’s            deficiencies in mainframe and LAN/PC access controls, as well as
information             delays in meeting FISMA requirements for risk assessments and
security program        periodic testing/evaluation. OA’s current evaluation concluded that
as part of the fiscal   RRB has not yet achieved an effective FISMA compliant security
year 2008 FISMA         program. OA noted that RRB is addressing its significant deficiencies
evaluation.             in the previously reported areas of access controls, risk assessments
                        and periodic testing/evaluation; however, much work remains to be
                        completed. Management accepted seven of the eight audit
                        recommendations and has taken one recommendation under
                        advisement.

                        The Consolidated Appropriations Act, 2008, P.L. 110-161, restored
                        OIG’s ability to conduct RRB Medicare oversight including
                        audits/evaluations. During this semiannual reporting period, OA
                        evaluated the RRB Medicare contractor’s information security program
                        as part of the FY 2008 FISMA evaluation. OA concluded that RRB has
                        received a level of information from their Medicare contractor that
                        would facilitate oversight of the RRB Medicare program, including
                        FISMA compliance. However, some improvement is needed in
                        ensuring risk-based assessments for the RRB’s information security
As a basis for          and privacy program. Management accepted both audit
audit planning, the     recommendations.
Office of Audit
performed a             During this reporting period, as a basis for audit planning, OA
high-level analysis     performed a high-level analysis of RRB’s Medicare program
of RRB’s Medicare       background.
program
background.             All audits/evaluations completed during this reporting period are
                        discussed in further detail on pages 9 through 17.




                           Railroad Retirement Board – Office of Inspector General           4
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Investigative Activities
    The Office of Investigations (OI) focuses its efforts on identifying,            The Office of
    investigating and presenting RRB benefit fraud cases for prosecution.            Investigations
    OI conducts investigations throughout the United States relating to the          focuses its
                                                                                     efforts on
    fraudulent receipt of RRB sickness, unemployment, disability,
                                                                                     identifying,
    retirement or RRB Medicare benefits. OI investigates railroad                    investigating and
    employers and unions when there is an indication that they have                  presenting RRB
    submitted false reports to the RRB. OI also investigates allegations             benefit fraud
    regarding agency employee misconduct and threats against RRB                     cases for
    employees. Investigative efforts can result in criminal convictions, civil       prosecution.
    penalties, recovery of program benefit funds and/or administrative
    sanctions.

    From April 1, 2008 through September 30, 2008, OI achieved 23
    convictions, 26 indictments and/or informations, 16 civil judgments and          During this
    over $1.8 million in monetary accomplishments. OI had four arrests               reporting period,
                                                                                     the Office of
    and 56 referrals to the Department of Justice. RRB defendants, in the            Investigations
    aggregate, were sentenced to almost three years in jail, more than 61            achieved 23
    years of probation and 350 hours of community service. OI also had               convictions, 26
    $278,159 in investigative recoveries from completed cases.                       indictments and/or
    Investigative recoveries are settled fraud amounts that can be                   informations, 16
                                                                                     civil judgments
    recouped through administrative recovery action by the RRB.                      and over $1.8
                                                                                     million in monetary
    During FY 2008, OI had over $4.3 million in monetary accomplishments             accomplishments.
    and the agency collected almost $1.4 million, as a result of criminal and
    civil judgments related to OI investigations.

    Disability benefit investigations often involve sophisticated schemes to
                                                                                     From April 1, 2008
    hide disqualifying work activities from the RRB. During this reporting           through
    period RRB Special Agents investigated a variety of disability fraud             September 30,
    schemes, such as: (1) an annuitant failing to report wages from a                2008 Railroad
    private employer; (2) self-employed annuitant failing to report                  Retirement Board
    disqualifying income; (3) an annuitant performing disqualifying work for         defendants, in the
                                                                                     aggregate, were
    a government contractor while getting paid under his wife’s social               sentenced to
    security number; (4) an annuitant concealing his corporate ownership             almost three years
    and self-employment; and (5) an annuitant failing to report his wages in         in jail, more than
    excess of the allowable amount.                                                  61 years of
                                                                                     probation and 350
                                                                                     hours of
    Unemployment Insurance (UI) and Sickness Insurance (SI) benefit                  community
    fraud typically involves claimants applying for and receiving benefits           service.
    while failing to report their wages. A majority of these cases are


       Railroad Retirement Board – Office of Inspector General                   5
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



During this           referred to the OIG from the RRB’s Disability, Sickness and
reporting period,     Unemployment Benefits Division.
the Office of
Investigations        Retirement/Survivor benefit fraud investigations typically involve either:
completed its first   (1) the failure to report disqualifying information, such as continued
RRB Medicare          employment; (2) the failure to report the death of an annuitant; or (3)
case and has          the failure to report a surviving spouse’s remarriage. During this
obtained an           reporting period, Special Agents have investigated diverse fraud
indictment on a
                      schemes such as: (1) an annuitant using his brother’s name for
second case.
                      corporate ownership to avoid detection by RRB; (2) an annuitant’s
                      representative payee stealing RRB annuity checks for his own personal
                      use; (3) an annuitant’s son failing to report his mother’s death to the
                      RRB while still collecting and spending her RRB annuity; (4) a referral
                      from a bank notifying RRB regarding the death of an annuitant; and (5)
                      an annuitant failing to report a disqualifying marriage.

                      With the passage and enactment of the Consolidated Appropriations
                      Act, 2008, P.L. 110-16, the OIG has again been authorized to use
                      appropriated funds to conduct oversight for the RRB Medicare
                      program. This very significant program administered by the RRB,
                      provided approximately $844 million in healthcare benefits to roughly
                      485,948 qualifying RRB beneficiaries in FY 2008. Medicare fraud
                      involves a diversity of schemes including billing for services not
                      rendered, submitting charges for a greater level of service than was
                      actually performed, billing for an entirely different service than was
                      actually performed, billing for medically unnecessary services and
                      various other types of fraud activities.

The Office of         During this semiannual reporting period, OI completed its first RRB
Investigations is     Medicare case and has obtained an indictment on a second.
actively              Additionally, OI is actively investigating 24 RRB Medicare fraud cases
investigating 24      and has an additional 24 referrals under review. All of OI’s active RRB
Railroad              Medicare cases are being worked jointly with the Department of Health
Retirement Board
                      and Human Services, the Office of Personnel Management or other
Medicare fraud
cases and has an      agencies responsible for investigating healthcare fraud. Interagency
additional 24         cooperation is imperative to effective law enforcement. To that end, the
referrals under       Assistant Inspector General for Investigations contacted
review.               representatives from the Department of Health and Human Services –
                      Office of Inspector General (HHS-OIG) and requested an analysis
                      between RRB’s Part B Medicare Contractor’s provider database and
                      HHS-OIG’s fraud database. This analysis will provide OI with an
                      important source of potential cases. It will also ensure that fraud losses
                      related to claims processed by the RRB’s contractor, Palmetto, GBA,


                         Railroad Retirement Board – Office of Inspector General               6
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    will be included in criminal and civil judgments. Based upon an OIG
    recommendation submitted to the Centers for Medicare and Medicaid
    Services (CMS), CMS is now providing the RRB Medicare claims
    processor with national fraud alerts. This will allow the claims
    processor to more effectively screen claims.
                                                                                 The Office of
                                                                                 Investigations
    OI also investigates allegations regarding agency employee                   continues to
    misconduct and threats against RRB employees. During this reporting          make referrals to
    period Special Agents investigated: (1) a RRB employee who was               the Department
    arrested for illegal conduct while off-duty; (2) the agency’s improper       of Justice’s
    disclosure of personally identifiable information; and (3) threatening       Affirmative Civil
    telephone calls to RRB employees. Special Agents also assist in the          Enforcement
    adjudication of employee background security checks.                         program.

    OI continues to make referrals to the Department of Justice’s
    Affirmative Civil Enforcement (ACE) program. The ACE program
    provides an efficient means to address fraud against RRB programs,
    particularly where the fraud losses are below the financial guidelines for
    criminal prosecution. It is an effective way to return fraud losses to the
    RRB’s trust funds and it also creates a deterrent again future fraud.
                                                                                 Special Agents
    A sample of OI fraud cases closed during this reporting period are           also assist in the
    discussed in more detail on pages 22 to 33.                                  adjudication of
                                                                                 employee
                                                                                 background
                                                                                 security checks.




       Railroad Retirement Board – Office of Inspector General               7
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



       Investigative Accomplishments

             Action                   April 1, 2008 –             Fiscal Year
                                    September 30, 2008               2008

  Convictions                                  23                      47

  Civil Judgments                              16                      29

  Indictments/Informations                     26                      52

  Investigative Recoveries*                $278,159                $1,034,119

  Restitution and Fines                    $926,414               $1,875,616

  Community Service Hours                     350                      370
  Civil Damages and
                                           $568,711                $1,228,361
  Penalties
  Potential Economic Loss
                                               $0                   $131,353
  Prevented (PELP)
  Disciplinary/Administrative
                                               1                           2
  Actions
  Civil Complaints                             10                      17

  Criminal Complaints                          1                           4

  Arrests                                      4                       10
  Department of Justice
                                               56                      117
  Referrals

*Investigative recoveries are fraud amounts that can be recouped through
administrative recovery action by the RRB.




   Railroad Retirement Board – Office of Inspector General                      8
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           APRIL 1, 2008 THROUGH
           SEPTEMBER 30, 2008                                                    The mission of
           ACCOMPLISHMENTS                                                       the Office of
                                                                                 Audit is: (1) to
                                                                                 promote
           Office of Audit                                                       economy,
                                                                                 efficiency, and
    Congress established the OIG to provide independent oversight of the         effectiveness in
                                                                                 the
    RRB. Within the OIG, the mission of OA is: (1) to promote economy,
                                                                                 administration of
    efficiency, and effectiveness in the administration of RRB programs;         RRB programs;
    and (2) to detect and prevent fraud and abuse in such programs.              and (2) to detect
    Through the Inspector General, OA keeps Board Members and the                and prevent
    Congress informed of current and potential problems and deficiencies         fraud and abuse
    in RRB operations. OA also tracks the status of progress towards             in such
    corrective action.                                                           programs.

    Audit and evaluations completed during this semiannual reporting
    period follow.

           Implementation of Selected Requirements
           for Government Charge Card Programs at
           the Railroad Retirement Board –                                       The Office of
                                                                                 Audit completed
           May 14, 2008                                                          their audit of the
                                                                                 agency’s
    OA completed their audit of the agency’s implementation of selected          implementation
    requirements for government charge card programs as established by           of selected
                                                                                 requirements for
    Appendix B of the Office of Management and Budget’s Circular A-123,
                                                                                 government
    “Improving the Management of Government Charge Card Programs”                charge card
    (Appendix B). The goal of Appendix B is to maximize benefits to the          programs as
    federal government when using government charge cards to pay for             established by
    goods and services in support of official federal missions.                  the Office of
                                                                                 Management
    The General Services Administration (GSA) initiated a government-            and Budget.
    wide charge card program, GSA SmartPay, to provide agencies with
    easy solutions for making smaller purchases. In addition to GSA
    SmartPay cards, RRB issues travel charge cards to employees who
    travel frequently. The objective of OA’s audit was to assess RRB’s
    compliance with selected requirements of Appendix B. The scope
    consisted of GSA SmartPay and RRB travel card activities billed to the
    agency during October 2005 through April 2007.


       Railroad Retirement Board – Office of Inspector General               9
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008




                      OA concluded that RRB has experienced some delays in implementing
The Office of Audit   the requirements of Appendix B. Namely, RRB has not yet complied
concluded that        with Appendix B requirements for the preparation and submission of a
RRB has               charge card management plan and has not ensured that charge card
experienced some      management training is provided to program participants prior to
delays in             appointment. Additionally, risk management controls do not include
implementing the      procedures to identify misuse of government travel cards and increased
requirements of       controls are needed over confidential information. Management
Appendix B.
                      accepted all five audit recommendations.




Management
accepted all five
audit
recommendations.




                         Railroad Retirement Board – Office of Inspector General          10
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Evaluation of the Information Security for the
           Railroad Retirement Board’s Financial                                The Office of
           Interchange Major Application –                                      Audit’s report
           September 26, 2008                                                   entitled
                                                                                Evaluation of the
                                                                                Information
    OA’s report entitled Evaluation of the Information Security for the         Security for the
    Railroad Retirement Board’s Financial Interchange Major Application         Railroad
    was completed pursuant to Title III of the E-Government Act of 2002         Retirement
    which is commonly known as the Federal Information Security                 Board’s
    Management Act (FISMA). FISMA mandates that agencies develop,               Financial
    document and implement an agency wide information security program.         Interchange
    FISMA also established minimum information security requirements.           Major
    These requirements are listed in the National Institute of Standards and    Application was
    Technology (NIST) Special Publication 800-53, “Recommended                  completed
    Security Controls for Federal Information Systems.”                         pursuant to Title
                                                                                III of the
                                                                                E-Government
    The financial interchange is a collective term that describes a series of   Act of 2002.
    legally mandated periodic fund transfers between Social Security
    Administration (SSA), the RRB, the Centers for Medicare and Medicaid
    Services and the Treasury. The amounts transferred are the result of
    complex statistical projection. The RRB’s Bureau of Actuary is
    responsible for determining the amount to be transferred each year.
    The RRB’s Bureau of Information Services maintains the general
    support system in which the financial interchange major application
    operates. In June 2008, the RRB received a net transfer for fiscal year
    2007 of over $3.5 billion, representing 39% of RRB financing sources
    for that year.
                                                                                Management
    OA’s evaluation concluded that the Bureau of Actuary needs to               concurred with
                                                                                all eleven
    strengthen application-level controls in the financial interchange major    recommendations.
    application system. The evaluation of NIST security requirements
    disclosed weaknesses in access controls, contingency planning,
    systems development, systems documentation and asset inventory.
    Management concurred with all 11 recommendations.

    The full report included information protected from disclosure and has
    been designated for limited distribution pursuant to the Freedom of
    Information Act, 5 U.S.C. § 552.




       Railroad Retirement Board – Office of Inspector General             11
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                            Fiscal Year 2008 Evaluation of Information
The Office of
                            Security at the Railroad Retirement Board –
Audit’s evaluation          September 30, 2008
entitled Fiscal
Year 2008             OA’s evaluation entitled Fiscal Year 2008 Evaluation of Information
Evaluation of         Security at the Railroad Retirement Board was pursuant to the Federal
Information           Information Security Management Act (FISMA). FISMA requires an
Security at the       annual OIG evaluation of the agency’s information security program
Railroad
                      and practices that includes all agency general support and major
Retirement Board
concluded that the
                      applications.
Railroad
Retirement Board      OA’s current evaluation concluded that RRB has not yet achieved an
has not yet           effective FISMA compliant security program. The agency is addressing
achieved an           its significant deficiencies in the previously reported areas of access
effective Federal     control, risk assessments, and periodic testing and evaluations;
Information           however, much work remains to be completed.
Security
Management Act        Previously identified weaknesses in the areas of risk based policies and
compliant security    procedures, a NIST compliant certification and accreditation program,
program.
                      the identification of contractors, an effective remedial action process,
                      the continuity of operations and the inventory of systems continue to
                      exist. During OA’s FY 2008 evaluation, they also observed
                      weaknesses in the agency’s implementation of timely, National Institute
                      of Standards and Technology (NIST) compliant system security plans
                      and in the identification of temporary employees and provision of
The Office of Audit   security awareness training to those temporary employees.
noted that the
Railroad
Retirement Board
                      The evaluation’s objective was to assess the adequacy of the RRB’s
is addressing its     information security program. This objective was achieved by: (1)
significant           testing the effectiveness of information security policies, procedures
deficiencies but      and practices of a representative subset of the agency’s information
that much work        systems; and (2) assessing RRB’s compliance with FISMA
remains to be         requirements and related information security policies, procedures,
completed.            standards and guidelines.

                      Access Control

                      Agency access control has been cited as a significant deficiency since
                      FY 2001. During both the FY 2001 evaluation and subsequent
                      evaluations, OA has made several recommendations for improvement.
                      As of September 4, 2008, the agency had 14 remaining audit
                      recommendations relating to access control.


                         Railroad Retirement Board – Office of Inspector General               12
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    The design and implementation of access controls in the RRB’s general
    support and application systems is not adequate to meet minimum             The Office of
    standards of least privilege established by OMB Circular A-130,             Audit’s objective
    Appendix III. Least privilege is the practice of restricting a user’s       was to assess
    access or type of access to the minimum necessary to perform his or         the adequacy of
                                                                                the Railroad
    her job. Excessive rights and privileges weaken the overall information
                                                                                Retirement
    security program.                                                           Board’s
                                                                                information
    OA’s FY 2008 assessment of information security in the financial            security
    interchange major application identified access and sharing                 program.
    permissions that do not restrict the financial interchange files and
    folders in a manner consistent with the principle of least privilege.
    Based on this evaluation, OA made three additional recommendations
    in the area of access control in their report entitled Evaluation of the
    Information Security for the Railroad Retirement Board’s Financial
    Interchange Major Application.

    Ongoing reviews of the agency’s significant deficiency in access control
    through penetration tests of agency servers also disclosed poor
    security configurations that allowed access to unauthorized users.
    Agency officials have taken actions to address these weaknesses.

    Agency action to implement prior recommendations regarding the
    significant deficient area of access control is pending.

    Risk Assessment

    RRB has not implemented an effective risk assessment process.
    FISMA requires federal agencies to periodically assess the risk and
    magnitude of harm that could result from unauthorized access, use,
    disclosure, disruption, modification or destruction of information or
    information systems. Organizations use risk assessments to determine
    the potential threats to information and information systems and to
    ensure that the greatest risks have been identified and addressed.

    Starting in FY 2005 OA cited RRB with a significant deficiency in the
    area of risk assessment because the agency had made little progress
    in implementing a formal NIST compliant risk assessment process. OA
    recommended that RRB complete a formal NIST compliant risk
    assessment of the RRB’s six major applications and two general
    support systems. As of this semiannual reporting period, this
    recommendation is still pending corrective action causing risk
    assessment to remain a significant deficiency.


       Railroad Retirement Board – Office of Inspector General             13
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



During FYs 2007 and 2008, the agency contracted with technical
specialists to assist in the certification and accreditation of the RRB’s
major applications and general support systems. This contract
included the preparation of formally documented, NIST compliant risk
assessments. As of August 2008, only the risk assessment for RRB’s
LAN/PC general support system had been finalized.

OA’s review of the LAN/PC risk assessment showed that the contractor
had completed the risk assessment in accordance with NIST guidance.
However, some weaknesses in the description of the system
environment and in the control analysis for system backups remain.
OA attributes these weaknesses to an ineffective review process of
contractor deliverables performed by the Bureau of Information
Services (BIS). As a result, the effectiveness of the certification and
accreditation process and the information security program as a whole
is undermined.

In addition to previous recommendations relating to risk assessment,
OA recommended that BIS review and update the LAN/PC general
support system’s risk assessment to accurately reflect the current RRB
system environment and control analysis.

Periodic Testing/Evaluation

FISMA requires periodic testing and evaluation of the effectiveness of
information security policies, procedures and practices performed with
a frequency depending on risk, but no less than annually. The periodic
tests and evaluations must include testing of management, operational
and technical controls for every system identified in the agency’s
inventory of systems, including contractor operations. NIST provides
procedures for assessing the effectiveness of security controls
employed in federal information systems and directly supports the
security certification and accreditation process.

OA’s FY 2005 FISMA evaluation cited RRB with a significant deficiency
in its testing and evaluation program because the agency had made
little progress in implementing a compliant periodic testing and
evaluation process. OA recommended that RRB ensure periodic
independent evaluations of system security. As of this semiannual
reporting period, this recommendation is still pending corrective action
causing periodic testing/evaluation to remain a significant deficiency.




   Railroad Retirement Board – Office of Inspector General              14
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    Certification and Accreditation Process
                                                                                Railroad
    During FY 2007, RRB completed the certification and accreditation           Retirement Board
                                                                                management
    process for its LAN/PC general support system and is in the process of      accepted seven of
    certifying and accrediting the mainframe general support system and         the eight audit
    five of six major applications. OA recommended that the RRB ensure          recommendations
    certification and accreditation of the remaining major applications.        and has taken one
                                                                                recommendation
                                                                                under advisement.
    Contractor Operations

    Additionally, RRB’s tests and evaluations are not comprehensive for
    corrective action with respect to contractor operations. Although the
    agency has implemented a policy to perform and document information
    security site assessments, they have not developed a comprehensive
    plan to accomplish testing and evaluation of all of their contract
    operations. OA observed that not all program managers have taken
    action to perform site assessments. Inadequate testing and evaluation
    of contractor operations weakens the security program as a whole and
    remains part of the significant deficiency for periodic testing.

    OA recommends implementation of previous recommendations and the
    development of a comprehensive plan for the testing and evaluation of
    the agency’s contractor operations.

    Other Observed Weaknesses

    In FY 08, OA also observed some weaknesses in risk-based policies
    and procedures, information security training for temporary employees,
    incomplete of inaccurate system security plans and the establishment
    of a reliable fixed asset inventory for information technology equipment.

    Audit Recommendations

    Management accepted seven of the eight audit recommendations and
    has taken one recommendation under advisement.




       Railroad Retirement Board – Office of Inspector General             15
                      Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



The                  Evaluation of the Railroad Retirement Board
Consolidated
Appropriations
                     Medicare Contractor’s Information Security –
Act, 2008, P.L.      September 26, 2008
110-161,
restored the         The Consolidated Appropriations Act, 2008, P.L. 110-161, restored
Office of            OIG’s ability to conduct RRB Medicare oversight including
Inspector            audits/evaluations. During this semiannual reporting period, OA
General’s ability
                     evaluated the RRB Medicare contractor’s (Palmetto) information
to conduct RRB
Medicare             security program as part of their FY 2008 FISMA evaluation. OA’s
oversight            evaluation included an examination of FISMA supporting
including audits/    documentation prepared by Palmetto. OA also assessed whether a
evaluations.         recently implemented web-based component application used by
                     Palmetto adequately addressed authentication and privacy risks in
                     accordance with OMB requirements.

                     OA concluded that RRB has received a level of information from
                     Palmetto that would facilitate oversight of the RRB Medicare program,
                     including FISMA compliance. Some improvements, however, are
                     needed to ensure risk-based assessments for the RRB’s information
                     security and privacy program. Management concurred with both
 During this
 semiannual          recommendations made by OA.
 reporting period,
 OA evaluated        The National Institute of Standards and Technology defines electronic
 the Railroad        authentication as “the process of establishing confidence in user
 Retirement          identities electronically presented to an information system.” OA noted
 Board Medicare      that RRB management did not ensure that the E-Authentication Risk
 contractor’s        Assessment was prepared in accordance with OMB guidance.
 information         Management agreed with OA’s recommendation to prepare an
 security program    electronic authentication risk assessment for the newly implemented
 as part of their    application.
 FY 2008 FISMA
 evaluation.
                     A privacy impact assessment was not prepared before the newly
                     developed RRB web-based application was implemented. A privacy
                     impact assessment is an analysis of how information is handled to
                     ensure the handling conforms with legal, regulatory and policy
                     requirements regarding privacy. A privacy impact assessment is
                     essentially a risk assessment of the practices involving privacy-related
                     information. RRB’s newly implemented web-based component
                     application included personally identifiable information requiring it to
                     meet OMB criteria. RRB management did not ensure that the privacy
                     impact assessment was prepared in accordance with OMB guidance.
                     As a result, RRB can not provide assurance that the risks associated


                        Railroad Retirement Board – Office of Inspector General             16
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    with collecting and handling privacy-related information are addressed
    in the new application. Management agreed with OA’s
    recommendation to prepare a privacy impact assessment for this
    application.




       Railroad Retirement Board – Office of Inspector General           17
                     Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                           Management Decisions and Implementation

The Office of       The OIG tracks the status of corrective actions for all audit/evaluation
Inspector General   recommendations. Office of Management and Budget Circular No. A-
tracks the status   50 (Revised) and the Inspector General Act Amendments of 1988
of corrective
actions for all
                    require the reporting of management decisions and corrective actions
audit/evaluation    for all audit/evaluation recommendations.
recommendations.
                             Management Decisions for Recommendations
                     Requiring Management Decision on April 1, 2008                0
                     Pending Management Decision for New
                                                                                   1
                     Recommendations
                     Management Decision on Previous Recommendations               0
                     Recommendations Pending Management Decision on
                                                                                   1
                     September 30, 2008




                                            Corrective Actions
                     Recommendations Requiring Action on
                                                                                 160
                     April 1, 2008
                     Recommendations Issued During Reporting Period               26
                     Corrective Actions Completed During Reporting Period         20
                     Recommendations Rejected During Reporting Period              2
                     Final Actions Pending on September 30, 2008                 164




                       Railroad Retirement Board – Office of Inspector General             18
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Office of Investigations

           Investigative Caseload Data

    During this semiannual reporting period, OI reviewed 183 matters. The
    major referral sources for these matters reviewed are listed below:

            Source of Referral               Percentage
       RRB Headquarters                          51%
       Hotline                                   20%
       RRB Field Offices                         10%
       Other Federal Agencies                     8%
       Other                                      4%
       Department of Justice                      3%
       Railroad Employers                         2%
       RRB Employees                              1%
       OIG Developed                             0.5%
       Railroad Worker                           0.5%

                                                                              During this
                                                                              semiannual
                                                                              reporting period,
                                                                              the Office of
                                                                              Investigations
                                                                              reviewed 183
                                                                              matters.




       Railroad Retirement Board – Office of Inspector General           19
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



      Investigative Tools

To gather evidence and further investigations, Special Agents have a
wide range of investigative tools including the Federal Grand Jury
procedure, the Inspector General Subpoena and the Trial Subpoena.
The following table summarizes OI’s use of these investigative tools
from April 1, 2008 through September 30, 2008 and during FY 2008.


                              Number Served
                             during the period      Number Served
  Type of Subpoena
                              April 1, 2008 –        in Fiscal Year
  Served
                              September 30,               2008
                                   2008
  Inspector General
                                     29                      90
  Subpoena
  Federal Grand Jury
                                     79                      152
  Subpoena
  Trial Subpoena                      2                      2




   Railroad Retirement Board – Office of Inspector General             20
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Current Caseload
    OI’s current caseload totals 421 matters, representing approximately
    $16 million in fraud against the RRB. The potential fraud losses by             The Office of
    case type are listed below.                                                     Investigation’s
                                                                                    current caseload
                                                                                    totals 421
                                    Number Percentage           Potential           matters,
           Type of Case                of      of                 Fraud             representing
                                     Cases   Cases               Losses             approximately
              Disability              196          46%         $8,111,876           $16 million in
                                                                                    fraud against the
      Unemployment/Sickness            83          20%           $558,263           Railroad
                                                                                    Retirement
             Retirement                53          12%         $2,438,081           Board.
           RRB Medicare                24           6%         $3,277,561
         Spouse/Dependent              22           5%         $1,159,651
                Other                  15           4%           $316,080
       Representative Payee            12           3%           $238,483
         Railroad Employer             10           2%                   $0*
              Employee                  2           1%                   $0*
               Threats                  3         0.75%                  $0
         Commercial Fraud               1         0.25%                  $0*


           *Potential fraud losses are undetermined at this time.




       Railroad Retirement Board – Office of Inspector General                 21
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                            REPRESENTATIVE INVESTIGATIONS
                            APRIL 1, 2008 – SEPTEMBER 30, 2008
 During this
 reporting period,
 the Office of              Disability Benefit Investigations
 Investigations
 obtained nine        OI conducts fraud investigations relating to the RRB's disability
 convictions and
                      program. Disability benefit investigations often involve sophisticated
 seven civil
 judgments in
                      schemes to hide disqualifying work activities from the RRB. Railroad
 Railroad             workers who are awarded a disability annuity by the RRB are subject
 Retirement           to work restrictions and earnings limitations.
 Board disability
 fraud cases.         During this reporting period, OI obtained nine convictions and seven
                      civil judgments in disability fraud cases. The defendants received
                      sentences totaling 19.5 years of probation and 200 hours of
                      community service. They were ordered to pay $430,696 in restitution,
                      $8,725 in fines and $430,662 in civil damages/penalties.

                      Descriptions of several cases completed during this reporting period
                      follow.

                            Disability Annuitant Ordered to Repay $52,844
The defendants in
                      Based upon an agency referral, OI initiated this investigation of a RRB
these cases
received              disability annuitant. An initial check with the Social Security
sentences totaling    Administration revealed the annuitant was receiving wages from a
19.5 years of         private employer while receiving a RRB disability annuity.
probation and 200
hours of              Special Agents used subpoenas, subject interviews and complex
community             financial analysis to determine that during the period of January 2003
service. They         through November 2004 the annuitant earned wages in excess of the
were ordered to       allowable amount. The annuitants’ actions caused him to fraudulently
pay $430,696 in       receive a total of $50,515 in RRB annuity payments. This case was
restitution, $8,725   referred to the United State Attorney’s Office (USAO) for the Central
in fines and
                      District of California. A Federal Grand Jury returned an indictment
$430,662 in civil
damages/              charging the annuitant with 19 counts of Theft of Public Money. The
penalties.            U.S. District Court rendered judgment against the annuitant for three
                      counts and sentenced him to five years of probation, six months of
                      home confinement and restitution in the amount of $52,844 to the RRB.




                         Railroad Retirement Board – Office of Inspector General             22
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Disability Annuitant Failed to Notify RRB of his
           Self-Employment Activities

    OI received this case referral from the RRB Disability Benefits Division.
    Special Agents determined that the annuitant failed to report self-
    employment wages to the RRB. Financial analysis revealed that the
    annuitant earned wages above the allowable limit from 1999 through
    2004. The annuitant’s failure to report his self-employment wages
    caused him to fraudulently receive $59,625 in RRB disability payments.
    During an interview with OI Special Agents the annuitant fully admitted
    wrongfully receiving RRB benefits.

    This case was referred to the USAO for the Northern District of Indiana.
    The USAO filed an information against the annuitant for violations of
    Theft of Government Funds. He pled guilty and was sentenced to ten
    months of home detention, two years of probation, 100 hours of
    community service, assessed a $100 fine and ordered to pay full
    restitution to the RRB in the amount of $59,625.

           Disability Annuitant Worked for a Government
           Contractor
    The U.S. Department of Labor referred this case to OI. Subsequent
    investigation revealed that during the period of March 2006 through
    March 2007, the annuitant worked full-time for a government
    contractor. In order to avoid detection by the RRB, the annuitant
    reported his wages under his spouse’s social security number.
    During an interview with RRB Special Agents, the annuitant confessed
    to the allegations. The annuitant’s actions caused him to fraudulently
    receive $19,220 in disability benefits. This case was referred to the
    USAO for the Eastern District of Missouri. The annuitant entered into
    pretrial diversion for violation of Theft of Government Funds and
    agreed to 18 of months of probation and full restitution in the amount of
    $19,220.




       Railroad Retirement Board – Office of Inspector General             23
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



       Annuitant’s Spouse Held Responsible for Half of
       Fraud Amount

Special Agents investigated a self-employed disability annuitant. Their
investigation revealed that during the period of February 1999 through
September 2006 the annuitant earned wages in excess of the allowable
amount established by the Railroad Retirement Act. The annuitant’s
failure to report his income to the RRB caused him to fraudulently
receive $169,173 in disability payments. During the course of the
investigation the annuitant passed away. Special Agents interviewed
the annuitant’s spouse regarding her role in this matter. She admitted
that her spouse was self-employed while collecting a disability annuity.
She further admitted that he had earned above the allowable limit and
had reported his wages under her social security number to avoid
detection by the RRB. This case was referred to the USAO for the
Southern District of Georgia. The annuitant’s spouse entered into a
settlement agreement with the USAO and will pay $84,586 in restitution
for her half of the fraud amount.

       Disabled Annuitant Owns and Operates
       Construction Firm
Special Agents investigated a RRB disability annuitant who owned and
operated his own construction business. Their investigation revealed
that the disabled annuitant actually performed the physical labor
involved in house remodeling and had his clients pay his spouse for the
work. From 2004 through 2006 the annuitant earned wages in excess
of the allowable amount established by the Railroad Retirement Act.
During an interview with Special Agents the annuitant admitted that he
used his wife’s name for payment in order to avoid detection. The
annuitant’s failure to report his income to the RRB caused him to
fraudulently receive $46,060 in disability payments. This case was
referred to the USAO for the Eastern District of Kentucky. The
annuitant pled guilty to violations of Failure to Report, False Claims and
Statements and was sentenced to 12 months of probation, 100 hours of
community service, full restitution in the amount of $46,060 and a
$2,500 fine.




   Railroad Retirement Board – Office of Inspector General             24
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Unemployment and Sickness Insurance
           Investigations                                                       During this
                                                                                reporting period,
                                                                                the Office of
    Unemployment Insurance (UI) and Sickness Insurance (SI) benefit             Investigations
    fraud involves individuals claiming and receiving UI or SI benefits while   obtained three
    working and receiving wages from an employer, in violation of federal       convictions and
    law. OI receives the majority of these cases from the RRB’s Disability,     six civil
    Sickness and Unemployment Benefits Division as a result of                  judgments in
    information developed through state wage matching programs. The             Railroad
    RRB conducts computer wage matches with various states to identify          Retirement
    claimants who may have collected RRB administered unemployment or           Board
    sickness insurance benefits on the same days they received wages            unemployment
                                                                                and sickness
    from a private employer.
                                                                                insurance fraud
                                                                                cases.
    During this reporting period, OI obtained three convictions and six civil
    judgments for UI and SI fraud. Defendants in these cases received, in
    the aggregate, eight years of probation and 100 hours of community
    service. They were ordered to pay $30,153 in restitution, $165 in fines
    and $53,606 in civil damages/penalties.

    The following are examples of cases completed during this reporting
    period.

           Unemployment Claimant Submits 21 False Claims
           to the Railroad Retirement Board                                     The defendants
                                                                                in these cases
                                                                                received, in the
    OI initiated an investigation of a RRB unemployment insurance
                                                                                aggregate, eight
    claimant based upon an agency referral. The RRB had conducted a             years of
    computer wage match with the State of Illinois that identified claimants    probation and
    who may have collected RRB administered unemployment insurance              100 hours of
    benefits on the same days they received wages from a private                community
    employer.                                                                   service. They
                                                                                were ordered to
    OI determined that during the period of March 2006 through March            pay $30,153 in
    2007 the claimant applied for RRB unemployment benefits on the same         restitution, $165
    days she was working and being paid by a private employer. She              in fines and
    submitted a total of 21 false claims when applying for benefits by          $53,606 in civil
                                                                                damages/
    intentionally not reporting her employment. Her actions resulted in the
                                                                                penalties.
    theft of $10,368 in UI benefits. During an interview with Special
    Agents, the claimant admitted to the allegations. The case was
    referred to the USAO for the Northern District of Illinois. The USAO


       Railroad Retirement Board – Office of Inspector General             25
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



filed an information against the claimant for violations of Theft of Public
Money. The U.S. District Court rendered judgment against the claimant
and sentenced her to one year of probation, 100 hours of community
service, restitution in the amount of $10,368 and a special assessment
of $25.

       Sickness Insurance Claimant Caught Double
       Dipping

The RRB had conducted a computer wage match with the State of
Kentucky that identified claimants who may have collected RRB
administered benefits on the same days they had earnings reported to
the state. Based upon the results of that match, the agency referred
this case to OI for investigation.

OI’s investigation determined that the claimant applied for RRB
sickness insurance benefits on the same days he collected workers’
compensation payments from the State of Kentucky. During the period
of November 2006 through August 2007 he submitted a total of 13 false
claims when applying for RRB benefits. His actions resulted in the theft
of $6,419 in SI benefits. The case was referred to the USAO for the
Eastern District of Kentucky. The claimant entered into an agreed
judgment for violating the False Claims Act. He will pay full restitution
in the amount of $6,419.




   Railroad Retirement Board – Office of Inspector General              26
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Retirement/Survivor Benefit and
           Representative Payee Investigations                                   During this
                                                                                 reporting
    The Railroad Retirement Act provides retirement benefits for qualified       period, the
    railroad workers and their families. RRB retirement/survivor benefit         Office of
    and representative payee fraud typically involves the theft and/or           Investigations
    fraudulent cashing of retirement benefit checks by someone other than        obtained nine
    the authorized RRB annuitant. A second common retirement benefit             convictions
                                                                                 and two civil
    fraud scenario involves an individual failing to report information to the
                                                                                 judgments in
    RRB that may disqualify the annuitant from receiving benefits. During        Railroad
    the reporting period, OI obtained nine convictions for these types of        Retirement
    fraud cases. The defendants received sentences totaling more than            Board
    31 months in prison and 28 years of probation. They were also                retirement/
    ordered to pay $378,974 in restitution and $5,888 in fines. OI had two       survivor and
    civil judgments worth $35,501 in damages and penalties.                      representative
                                                                                 payee fraud
    Examples of cases completed during this reporting period follow.             cases.

           RRB Annuitant Put Corporate Ownership in His
           Brother’s Name to Avoid Detection by the RRB
    OI initiated an investigation against a retired railroad employee and his    The defendants
    spouse who substantially underreported their corporate income to             in these cases
                                                                                 received
    avoid losing their RRB retirement annuities. OI’s investigation
                                                                                 sentences
    revealed that the annuitant and his spouse operated the day-to-day           totaling more
    activities of a railroad industry based corporation. In order to avoid       than 31 months
    income detection, they put the corporate ownership in the name of his        in prison and 28
    brother.                                                                     years of
                                                                                 probation. They
    OI’s investigation further revealed that the annuitants utilized a variety   were also
    of bank accounts and mailing addresses to hide corporate assets from         ordered to pay
    the RRB. It was also discovered that they used the corporation to pay        $378,974 in
    off their mortgage and to purchase a number of high priced items             restitution,
    including real property, cars and boats.                                     $5,888 in fines
                                                                                 and $35,501 in
                                                                                 damages and
    To uncover this scheme, OI’s investigative activities involved multiple      penalties.
    subpoenas, interviews and complex financial analysis. The annuitants’
    actions caused them to fraudulently receive a total of $39,056 in RRB
    annuity payments. This case was referred to the USAO for the Middle
    District of Tennessee for criminal prosecution. The USAO filed a
    criminal information charging the former railroad employee with Theft


       Railroad Retirement Board – Office of Inspector General              27
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



of Public Money. He pled guilty to one count and the U.S. District
Court sentenced him to six months home of confinement, two years of
probation, restitution of $39,056 and a $5,000 fine.

      Former Representative Payee Misuses RRB
      Benefits for Personal Expenses

Based upon a RRB District Office referral, OI initiated an investigation
against an individual who was acting as the representative payee for
his disabled brother. During an interview with Special Agents, the
subject admitted that his brother left his custodial care in 2000. His
failure to report this information caused him to fraudulently receive
$60,762 in RRB survivor benefits which were intend for the care of his
brother. The representative payee used the funds for his own personal
use and gain. This case was referred to the USAO for the Eastern
District of Kentucky. A criminal indictment was filed against the
representative payee for Theft of Government Funds and Failure to
Report, False Claims and Statements. He pled guilty to the second
count and was sentenced to serve five years of probation and full
restitution in the amount of $60,762.

      Son of Deceased Annuitant Fraudulently Receives
      $132,969 in Benefits
A California man failed to report his mother’s death to the RRB and
fraudulently received $132,969 in benefits. OI’s investigation revealed
that the annuitant passed away in February 1989; however, RRB
continued to issue annuity checks in her name until January 2007.
When Special Agents initially interviewed the subject regarding his
mother’s annuity benefits, he stated that his mother was transient and
was living somewhere in Arizona but that he rarely heard from her.
After locating her death certificate, Special Agents conducted a second
interview. The subject admitted that he was living with his mother in
Texas at the time of her death. Shortly after his mother’s death, he
moved to California. He not only failed to notify the agency of her
death but he fraudulently changed her address to his new residence.
Once residing in California, the subject utilized his deceased mother’s
identification to open a bank account to receive her RRB annuity
benefits.

This case was referred to the USAO for the Northern District of
California. The subject pled guilty for violating Theft of Government


   Railroad Retirement Board – Office of Inspector General              28
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    Funds and was sentenced to three months of home confinement, 13
    months of community confinement, five years of probation, $100 fine
    and restitution in the amount of $132,969.

           Bank Makes Fraud Referral
    An anonymous caller contacted their local bank to notify them that one
    of their customers had passed away. After reviewing their internal
    records, it was discovered that the customer received a monthly
    automatic deposit from the RRB. The bank contacted RRB and notified
    them of the annuitant’s death. OI’s subsequent investigation revealed
    that the annuitant passed away in September 2007 but RRB continued
    to send automatic annuity deposits until December 2007 when the bank
    notified the RRB of the annuitant’s death. Special Agents and officers
    from the State Police interviewed the subject. She admitted that she
    failed to notify the RRB regarding the death of her grandmother and
    that she withdrew $4,135 in funds and used them for her own personal
    gain. The subject entered into a State Diversion Program with the
    States Attorney’s Office and agreed to 24 months of probation and full
    restitution.

           RRB Survivor Annuitant Actively Fails to Report
           Disqualifying Marriage

    Based upon an agency referral, OI initiated an investigation against a
    widower annuitant. Subsequent investigation revealed that the subject
    had applied for a widower’s annuity in November 1995 but at the time
    of her application she was not married to the qualifying railroad
    employee. In fact, she had actually married a non-railroad worker in
    August 1990 making her ineligible for RRB benefits. The annuitant’s
    fraudulent activity caused the agency to pay her $20,656 in benefits.
    This case was referred to the USAO for the District of Arizona. The
    subject entered into a Settlement Agreement for violating the False
    Claims Act. She will repay the full amount of the fraud.




       Railroad Retirement Board – Office of Inspector General            29
                     Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



The Office of              Railroad Retirement Board Medicare
Investigations
obtained
                           Investigations
renewed
Railroad            The Railroad Medicare program is a major area of agency
Retirement          responsibility. RRB enrolls railroad beneficiaries for Medicare coverage
Board Medicare      and collects premiums for Part B supplemental medical insurance.
oversight           RRB also selects and monitors the single nationwide RRB Medicare
authority on        Part B carrier, Palmetto GBA (Palmetto). During FY 2008, Palmetto
December 26,        processed approximately $844 million in payments.
2007 when
President Bush      RRB Medicare fraud involves a diversity of schemes including billing for
signed the
                    services not rendered, submitting charges for a greater level of service
Consolidated
Appropriations      than was actually performed, billing for an entirely different service than
Act, 2008, P.L.     was actually performed, billing for medically unnecessary services and
110-16.             other fraud activities. OI obtained renewed RRB Medicare oversight
                    authority on December 26, 2007 when President Bush signed the
                    Consolidated Appropriations Act, 2008, P.L. 110-16.

                    OI currently has 24 pending RRB Medicare cases with an estimated
                    loss of more than $3.2 million. They also have an additional 24
                    Medicare referrals under review. During this semiannual reporting
                    period, OI completed its first RRB Medicare case and has obtained an
                    indictment on a second case.

                           RRB Medicare Provider Enters Into Civil Settlement
                    This case was initiated based upon a referral from Palmetto’s Medicare
The Office of
                    Benefit Integrity Unit. Through proactive data analysis, Palmetto
Investigations
currently has 24
                    identified an ophthalmologist who was disproportionably billing the
pending Railroad    highest level evaluation and management procedure codes.
Retirement          Investigation revealed that the provider up-coded 71% of the sampled
Board Medicare      claims. Up-coding means that the underlying medical records support
cases with an       a lesser charge than what was actually billed to RRB Medicare. It was
estimated loss of   determined that the provider fraudulently billed RRB Medicare $24,471.
more than $3.2      This case was referred to the USAO for the Eastern District of Kentucky
million.            for civil prosecution. The provider entered into a settlement agreement
                    for violations of the False Claims Act. She agreed to pay double
                    damages in the amount of $48,941.




                       Railroad Retirement Board – Office of Inspector General              30
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Employee Misconduct and Threats Against
                                                                                During this
           Employees                                                            reporting period,
                                                                                the Office of
    OI investigates allegations regarding agency employee misconduct            Investigations
    and threats against RRB employees. Special Agents also assist in the        obtained two
    adjudication of employee background security checks.                        convictions for
                                                                                cases involving
                                                                                employee
    During this reporting period, OI obtained two convictions for cases         misconduct and
    involving employee misconduct and threats against employees. The            threats against
    defendants received, in the aggregate, three months in jail, six years of   employees.
    probation and were ordered to pay $71,814 in restitution.

    Examples of cases completed during this report period follow.

           RRB Employee Fired For Off-Duty Misconduct

    The Office of Personnel Management advised the RRB’s Human
    Resources Director that a background investigation identified that a
    RRB employee had been convicted for multiple crimes, which were
    unrelated to her current RRB position, but which she failed to report on
    her background information form. Special Agents assisted the agency
    with verification of the allegations and acted as the liaison between the
    agency and local law enforcement officers. The employee had pled
    guilty to charges of perjury and identity theft. Based on substantiated
    conviction information the employee was removed from her position           The defendants
    with the RRB.                                                               received, in the
                                                                                aggregate,
                                                                                three months in
           Agents Investigate Agency’s Improper Disclosure                      jail, six years of
           of Personally Identifying Information                                probation and
                                                                                were ordered to
    Special Agents assisted in the investigation of improper disclosure of      pay $71,814 in
    personally identifying information (PII). A member of the public            restitution.
    contacted the agency regarding various historical documents. Agency
    personnel permitted the individual to review, photocopy and retain
    documentation which contained PII. OI conducted an investigation
    regarding the events surrounding the breach of security. The individual
    agreed to return the documents to the agency for proper redaction.
    The agency also made the appropriate referral to the United States
    Computer Emergency Readiness Team.




       Railroad Retirement Board – Office of Inspector General             31
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



      Individual Committed to Mental Health Facility for
      Threatening RRB Employees

Special Agents previously investigated an individual for threatening
RRB employees. The case was referred to the USAO for Eastern
District of Arkansas for criminal prosecution. The subject entered into a
pretrial diversion. Subsequently OI received information that the
defendant violated his pretrial diversion by continuing to make repeated
telephone calls to RRB employees. The defendant also made
numerous threatening telephone calls to a local newscaster and
threatened local retail employees. Special Agents worked closely with
local law enforcement individuals to re-arrest the defendant. The
defendant was subjected to a competency evaluation in connection
with his violation of the pretrial diversion agreement and was eventually
committed to a mental health facility for treatment.




   Railroad Retirement Board – Office of Inspector General            32
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           Civil Enforcement Results

    OI also pursues civil actions to obtain judicial orders for the recovery of
    funds fraudulently obtained by annuitants or claimants. These civil
    actions are typically brought under the provisions of the False Claims        During this
    Act. This statute allows the government to recover up to treble               reporting period,
    damages as well as $5,500 to $11,000 for each false claim submitted.          a total of 16 civil
    Some of these civil actions are pursued under the Department of               judgments were
    Justice’s Affirmative Civil Enforcement (ACE) program which provides          entered by U.S.
    a fast track prosecution mechanism.                                           District Courts
                                                                                  for Railroad
                                                                                  Retirement
    During this period, a total of 16 civil judgments were entered by U.S.
                                                                                  Board fraud
    District Courts for RRB fraud cases that will result in $568,711 being        cases that will
    repaid to the government.                                                     result in
                                                                                  $568,711 being
    The ACE program continues to provide an efficient means to address            repaid to the
    fraud against RRB programs, particularly where the fraud losses are           government.
    below the financial guidelines for criminal prosecution. It is an effective
    way to return fraud losses to the RRB’s trust funds and it also creates
    a deterrent again future fraud.

    The following is an example of an ACE case.

           Annuitant to Pay Double Damages
    OI initiated an investigation of a RRB unemployment insurance
    claimant based upon an agency referral. The RRB had conducted a
    computer wage match with the State of Illinois. The wage match
    identified claimants who may have collected RRB administered
    unemployment insurance benefits on the same days they received
    wages from a private employer.

    OI determined that during February 2007 and June 2007 the claimant
    applied for RRB unemployment benefits on the same days he was
    working for a private employer. His failure to report these wages
    caused the RRB to pay him $5,700 in unemployment insurance
    benefits he was not eligible to receive.

    This case was referred to the USAO’s ACE unit for the Northern District
    of Illinois. The USAO filed a civil complaint for violation of the False
    Claims Act. The annuitant entered into a consent judgment agreeing to
    repay double damages in the amount of $11,400.


       Railroad Retirement Board – Office of Inspector General               33
                   Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                         Hotline Calls
                   The OIG established its Hotline to receive complaints concerning
The Office of
Inspector
                   suspected fraud, waste and abuse in RRB programs and operations.
General received   The Hotline provides an open line of communication for individuals to
396 Hotline        report suspected criminal activity, conflicts of interest and
contacts during    mismanagement/waste of RRB funds. During this reporting period,
this reporting     OIG updated their Hotline web page to include an optional complaint
period and a       form. Complainants’ use of this form will ensure OIG has the
total of 803       necessary information to properly evaluate the allegations.
during fiscal
year 2008.         OIG received 396 Hotline contacts during this reporting period and a
                   total of 803 during FY 2008. The following table summarizes the
                   subsequent Hotline referrals for the period April 1, 2008 through
                   September 30, 2008 and for FY 2008.


                                                             Number of Hotline
                                                              Referrals From         Fiscal
                              Referral Activity
                                                              April 1, 2008 –       Year 2008
                                                            September 30, 2008
                      RRB District or Regional Office               171                   331
                      Other (Hang Ups, Misdirected
                                                                    140                   298
                      Calls, Disconnections, etc.)
                      OIG – Office of Investigations                46                     85
                      Calls With Insufficient Information
                                                                    24                     52
                      to Make Appropriate Referrals
                      Other Federal Agencies                         4                     13
                      RRB Bureaus                                    7                     13
                      Additional Information is
                      Required Before Disposition can                2                     7
                      be Determined
                      RRB Medicare Carrier/ Durable
                                                                     1                     3
                      Medical Equipment Carrier
                      OIG – Office of Audit                          1                     1




                     Railroad Retirement Board – Office of Inspector General              34
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           LEGISLATIVE & REGULATORY REVIEW                                       The Office of
                                                                                 Inspector
    The Inspector General Act requires the Inspector General to review           General
    existing and proposed legislation and regulations relating to the            identified several
    programs and operations of the agency. It also requires the Inspector        notable areas of
    General to make recommendations in the Semiannual Report                     concern
    concerning the impact of its activities on the economy and efficiency of     regarding RRB
    the agency’s administration of its programs and in particular on the         Medicare benefit
    prevention of fraud and abuse. The OIG has nothing to report for this        integrity.
    semiannual period.

           RRB Medicare Benefit Integrity
    OIG identified several notable areas of concern regarding RRB
    Medicare benefit integrity. OIG believes that many of these concerns
    relate directly to the Centers for Medicare and Medicaid Services’
    (CMS) failure to invest adequate resources in RRB Medicare benefit
    integrity.

    Pursuant to provisions in the Health Insurance Portability and
    Accountability Act of 1996, CMS transferred all fraud and abuse work,
    with the exception of RRB Medicare claims, from carriers and fiscal
    intermediaries to Program Safeguard Contractors (PSC). RRB’s                 The Office of
                                                                                 Inspector
    Medicare Part B contractor Palmetto GBA (Palmetto) still performs
                                                                                 General believes
    these functions based upon a cost reimbursement contract.                    that many of
    Accordingly, Palmetto performs contract functions, including benefit         these concerns
    integrity, to the extent they are funded by the contract. The funding for    relate directly to
    benefit integrity activities is less than what one would expect for a high   the Centers for
    risk program such as Medicare. Reimbursement for the Palmetto                Medicare and
    contract is made by CMS who also determines the budget levels. In            Medicaid
    Palmetto’s March 6, 2008 Notice of Budget Authority for FY 2008,             Services’ lack of
    benefit integrity operations totaled only $230,000 for a workload            resources
    exceeding 11 million claims.                                                 invested in this
                                                                                 area.
    OIG’s concerns include the following: (1) inadequate size of the
    benefit integrity unit; (2) the benefit integrity unit’s lack of access to
    necessary expertise such as a Medical Director; (3) lack of
    communication between Palmetto’s customer service employees and
    the benefit integrity unit; (4) lack of sufficient claims data to conduct
    effective analytical work; (5) lack of cooperation between various RRB
    Medicare departments; (6) inaccurate provider enrollment files; (7) lack
    of retroactive reviews on suspended or debarred providers; (8) lack of


       Railroad Retirement Board – Office of Inspector General              35
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                      access to local coverage determinations; and (9) lack of educational
                      information provided to beneficiaries who receive direct billings from
The Office of         RRB Medicare providers.
Inspector General
believes that it is   In 2007, CMS announced that it would transition all PSC work to
imperative that the   Zoned Program Integrity Contractors (ZPIC). The procurement for
Centers for
                      ZPIC contracts is currently underway. ZPICs will perform the same
Medicare and
Medicaid Services     functions as the PSCs but under different contractual arrangements. It
provides adequate     is unclear, at this point, how the ZPIC contracts will affect RRB
funding for RRB       Medicare benefit integrity operations. It is OIG’s understanding that
Medicare benefit      the current statement of work for ZPICs does not address RRB
integrity             Medicare Part B claims. OIG believes that it is imperative that CMS
operations and        provides adequate funding for RRB Medicare benefit integrity
that they address     operations and that CMS addresses the issue of ZPICs with the
the issue of Zoned    Railroad Retirement Board.
Program Integrity
Contractors with
the Railroad                Systemic Issue Reporting – Occupational
Retirement Board.           Disability Program
                      The RRB’s occupational disability program has qualities that render it
                      susceptible to fraud and abuse. This program is a unique benefit for
                      railroad employees with generous benefits and a low threshold for
                      eligibility. The agency reports an approval rate of over 98% for
                      applicants.

                      The OIG notes that the occupational disability program is established
                      by federal statute and statutory changes would require Congressional
Based on a            action. The agency, however, should be more proactive in complying
recommendation        with section 231a (2) of the Railroad Retirement Act concerning
from the Office of    occupational disability standards.
Inspector General,
the agency had        A recent audit of the agency’s occupational disability program was
made changes to
                      conducted by Natalie P. Hartenbaum, MD, MPH and Laura Welch,
forms and
correspondence        MD. The scope of this audit was to “determine if the occupational
requiring             determination process was functioning as designed.” This report
annuitants to         identified a number of areas for improvement. OIG encourages the
provide more          agency to seriously consider their recommendations.
information when
they are engaged      In previous Semiannual Reports to the Congress, OIG had highlighted
in self-employment    their proactive work in relationship to the occupational disability
work or have an       program. For example, based on a recommendation from the OIG, the
affiliation with a    RRB has made changes to forms and correspondence requiring
corporation.

                         Railroad Retirement Board – Office of Inspector General               36
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    annuitants to provide more information when they are engaged in self-
    employment work or have an affiliation with a corporation. Agency
    personnel notified the OIG that the revised forms are capturing the
    intended information and more specifically annuitants are reporting       The agency
    their corporate ownership/involvement activity.                           decided, based on
                                                                              the Office of
    OIG continues to evaluate ways to improve the economy, efficiency         Inspector
    and effectiveness of the occupational disability program and will         General’s
                                                                              recommendation,
    continue to make recommendations to the agency.                           to make similar
                                                                              changes to a form
           Systemic Issue Reporting – Fraud Resulting                         it employs to
                                                                              monitor work and
           From Self-Employment Earnings                                      earnings for
                                                                              individuals who
    In OIG’s October 1, 2007 through March 31, 2008 Semiannual Report,        have been
                                                                              awarded a
    we reported that based on an OIG recommendation the agency made           disability annuity.
    changes to a number of forms that are completed by individuals
    applying for a RRB disability. These changes were designed to elicit
    information from the applicant concerning his/her affiliation with
    business entities from which he/she may receive self- employment
    income. During this reporting period the RRB decided, based on OIG’s
    recommendation, to make similar changes to a form it employs to
    monitor work and earnings for individuals who have been awarded a
    disability annuity. These changes have been approved by the RRB
    Board and the form has been submitted to the Office of Management
    and Budget for approval as an information collection document.

           Computer Alert Implemented to Notify
           Agency of Pending OIG Action
    In order to avoid case compromising contacts with targets, OI
    suggested that the agency add an alert to the internal computer
    database. RRB has instituted a system where a popup textbox notifies
    users that OIG has an active investigation open on the searched claim
    number. This automatic notification will reduce the risk of cases being
    compromised by administrative contact with the subject.




       Railroad Retirement Board – Office of Inspector General           37
                 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



Removal of the         Reimbursement to the Agency
current
appropriations
language would   Current appropriations law requires OIG to reimburse the RRB for
permit           indirect costs that include office space, equipment, communications,
negotiations     supplies, maintenance and administrative services. This process
between the      requires the use of agency and OIG resources for reconciliation and
agency and the   accounting that could be better utilized for improving agency
Office of        operations. RRB-OIG is the only federal Office of Inspector General
Inspector        that cannot negotiate a service level agreement with its parent agency.
General for a    Removal of the current language would permit negotiations between
more efficient   the RRB and OIG for a more efficient way to address the issue of
way to address
                 support costs.
the issue of
support costs.




                   Railroad Retirement Board – Office of Inspector General            38
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



           OUTREACH
                                                                                  During the week
    In addition to audit and investigative activities, OIG staff members          of March 31,
    perform outreach as a means to further the office’s mission. The              2008 through
    following section provides examples of the outreach activities                April 3, 2008, the
    conducted during this reporting period.                                       Office of
                                                                                  Inspector
    During the week of March 31, 2008 through April 3, 2008, the OIG              General
    coordinated a weeklong RRB Medicare fraud training course for their           coordinated a
    Special Agents. The training incorporated speakers from the Centers           weeklong
                                                                                  Railroad
    for Medicare and Medicaid Services, Department of Health and Human
                                                                                  Retirement
    Services – Office of Inspector General, the Office of Personnel               Board Medicare
    Management – Office of Inspector General, the United States                   fraud training
    Attorney’s Office for the Northern District of Illinois and representatives   course for their
    from the RRB Medicare Carrier, Palmetto GBA. Over 50 Special                  Special Agents.
    Agents and Medicare fraud partners benefited from this training.

    On April 8, 2008 Fox News in Chicago aired a special investigative
    report highlighting OIG fraud work. This segment concentrated on a
    disability benefit case which was discussed in our previous Semiannual
    Report to the Congress. Press coverage has a major impact on the
    benefit programs administered by the RRB. It creates a substantial
    deterrence by highlighting the ramification of fraudulent activities.
                                                                                  On May 7, 2008
                                                                                  the Inspector
    The Assistant Inspector General for Investigations gave a presentation        General made a
    to the Chicago Chapter of the Association of Government Accountants           presentation to
    regarding the investigative mission of the OIG. This event was                students
    attended by accountants and auditors from a broad spectrum of federal         majoring in
    offices of Inspector General.                                                 Government
                                                                                  Oversight and
    On May 7, 2008 the IG made a presentation to students majoring in             Inspection at
    Government Oversight and Inspection at John Jay College of Criminal           John Jay
    Justice in New York. The IG’s presentation focused on government              College of
    auditing standards and issues pertinent to the Inspector General              Criminal Justice
                                                                                  in New York.
    community.

    During the week of August 13th the Deputy Assistant Inspector General
    for Investigations and a Special Agent conducted an on-site visit at
    Palmetto GBA’s Augusta, Georgia location. This was the second on-
    site visit conducted by OIG staff members. The purpose of this visit
    was to further facilitate cooperation between OIG and Palmetto GBA’s
    RRB Medicare Benefit Integrity staff. During the course of this visit,


       Railroad Retirement Board – Office of Inspector General               39
                       Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



                      OIG noted several areas of concerns which are discussed in the
                      Legislative & Regulatory Review section of this report.
During the week
of August 13th
the Deputy            The United States Attorney’s Office for the Southern District of West
Assistant             Virginia announced an initiative to prosecute theft of government
Inspector             benefits including RRB benefits. Assistant Inspector General for
General for           Investigations was interviewed and quoted for a related news story in
Investigations        The State Journal. Press coverage creates a substantial deterrence by
and a Special         highlighting the ramification of fraudulent activities.
Agent conducted
an on-site visit at   On August 15, 2008 the IG participated as a member of the Inspector
Palmetto GBA’s        General Issues roundtable panel as part of the Certified Inspectors
Augusta,              General Institute conference at American University in Washington,
Georgia location.
                      D.C.

                      During this reporting period, OIG staff members have had the
                      opportunity to participate in a variety of Medicare related meetings
                      including several task forces. These task forces provide an open forum
                      for health care fraud related communications and foster a team
During this           approach to health care fraud investigations. Members of the various
reporting period,     task forces include representatives from the Department of Justice, the
Office of             Centers for Medicare and Medicaid Services, the Department of Health
Inspector             and Human Services – Office of Inspector General, the Office of
General staff         Personnel Management – Office of Inspector General, the Federal
members have          Bureau of Investigations, various State Police, various Medicaid Fraud
had the
                      Control Units and Medicare Program Safeguard Contractors. Since
opportunity to
participate in a      RRB Medicare is a national program, OIG staff members attend task
variety of            forces in several judicial districts.
Medicare related
meetings              OIG is an active member of the National Health Care Anti-Fraud
including several     Association.
task forces.
                      On a monthly basis, an OA staff member attends the agency’s
                      Information Technology Steering Committee meetings. This committee
                      provides ongoing assessment of all new and existing IT projects,
                      identifies critical issues and frames them from management and
                      technical perspectives. The functions of the committee include strategic
                      information resource management plan review, capital planning and
                      investment control and enterprise architecture review. The OA staff
                      person is not a member of the committee but acts as an OIG
                      representative. As such, she compiles and maintains a file of
                      committee activities and decisions which are used by OIG staff when


                         Railroad Retirement Board – Office of Inspector General            40
Semiannual Report to the Congress · April 1, 2008 – September 30, 2008


    assessing agency programs. Additionally, she is responsible for
    ensuring that the OIG’s interests are not overlooked when major IT            An Office of
    decisions are made by the agency.                                             Audit staff
                                                                                  member attends
                                                                                  the agency’s
    An OA staff member attends the agency’s Information Security and              Information
    Privacy Committee meetings as an OIG representative. This                     Security and
    committee facilitates the implementation and compliance of FISMA.             Privacy
    They are also involved in privacy management compliance for the               Committee
    agency. As the OIG representative, she compiles and maintains a file          meetings as the
    of committee activities and decisions which are used by OIG staff when        Office of
    assessing agency programs.                                                    Inspector
                                                                                  General
                                                                                  representative.
    Additionally, an OA staff member represents the OIG at a weekly status
    meeting with the agency project managers for the RRB’s National Toll
    Free Telephone Service (NTFS). The NTFS project will provide RRB
    beneficiaries with a single toll-free automatic call distribution telephone
    number. It will upgrade the existing interactive voice response system
    and the current frame relay network to a multi-protocol label switching
    environment which will be able to carry voice, data and images via
    digital communication lines instead of the current analog system. This
    project has been contracted under the General Services
    Administration’s Networx Universal contract.




       Railroad Retirement Board – Office of Inspector General              41
 Semiannual Report to the Congress · April 1, 2008 – September 30, 2008



APPENDICES

(A) Office of Inspector General Reports Issued                    43
(B) Inspector General Issued Reports with
       Questioned Costs                                           44
    Inspector General Issued Reports with Recommendations
       that Funds Be Put to Better Use                            45
(C) Report on Receivables, Waivers and Recoveries
       Office of Investigations                                   46
       Office of Audit                                            47
(D) RRB Management Reports                                        48
(E) Reporting Requirements                                        54
(F) Acronyms                                                      56
(G) Legal Citations                                               58




   Railroad Retirement Board – Office of Inspector General          42
APPENDIX A
OIG REPORTS ISSUED


• Implementation of Selected Requirements for Government Charge
Card Programs at the Railroad Retirement Board – May 14, 2008

• Evaluation of the Information Security for the Railroad Retirement
Board’s Financial Interchange Major Application –
September 26, 2008

• Evaluation of the Railroad Retirement Board Medicare Contractor’s
Information Security – September 26, 2008

• Fiscal Year 2008 Evaluation of Information Security at the Railroad
Retirement Board – September 30, 2008




Railroad Retirement Board – Office of Inspector General            43
APPENDIX B
INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED
COSTS




                                                Number of
                                               Issued Audit   Amount of     Amount of
                                               Reports with   Questioned   Unsupported
                                                Questioned      Costs         Costs
                                                  Costs
   A. For which no management decision had
   been made by April 1, 2008
                                                    0             0             0
   B. Which were issued from April 1, 2008
   through September 30, 2008
                                                    0             0             0
   Subtotal (A + B)                                 0             0             0
   C. For which a management decision was
   made between April 1, 2008 through               0             0             0
   September 30, 2008
   (i) dollar value of disallowed costs             0             0             0
   (ii) dollar value of costs not disallowed        0             0             0
   D. For which no management decision had
   been made by September 30, 2008
                                                    0             0             0
   E. Report for which no management
   decision was made within six months of           0             0             0
   issuance




Railroad Retirement Board – Office of Inspector General                                  44
APPENDIX B – CONTINUED
INSPECTOR GENERAL ISSUED REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                                       Number of Issued
                                                       Audit Reports With
                                                                            Dollar
                                                       Recommendations
                                                                            Value
                                                       that Funds Be Put
                                                         to Better Use
          A. For which no management decision had
          been made by April 1, 2008
                                                               0              0
          B. Which were issued from April 1, 2008
          through September 30, 2008
                                                               0              0
          C. Subtotal (A + B)
                                                               0              0
          (i) dollar value of disallowed costs
                                                               0              0
          (ii) dollar value of costs not disallowed
                                                               0              0
          D. For which no management decision had
          been made by September 30, 2008
                                                               0              0
          E. Report for which no management decision
          was made within six months of issuance
                                                               0              0




Railroad Retirement Board – Office of Inspector General                              45
APPENDIX C
REPORT ON RECEIVABLES, WAIVERS AND RECOVERIES



The FY 1999 appropriations language for OIG requires the reporting of additional information
concerning actual collections, offsets and funds put to better use achieved as a result of
Inspector General activities.


OFFICE OF INVESTIGATIONS
Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:



                                                 Amount
                          Fiscal Year
                                                Recovered
                             1999                   $ 855,655
                             2000                  $1,038,134
                             2001                   $ 990,356
                             2002                   $ 785,843
                             2003                   $ 947,876
                             2004                   $ 646,273
                             2005                   $ 844,183
                             2006                  $1,281,680
                             2007                  $1,347,049
                             2008                  $1,389,489




Railroad Retirement Board – Office of Inspector General                                      46
APPENDIX C - CONTINUED
                                     OFFICE OF AUDIT
           Funds to be       Funds
                                           Receivables              Recoveries
 Report    put to better    Agreed by                                                       Explanation
                                           Established    Waivers    to Date
                use        Management
   99-03        $50,850         $50,850         $50,850 $50,490           $360
   99-14        $83,000         $83,000*        $34,423                 $30,584 * This figure includes monies owed
                                                                                  to the agency and overpayments
                                                                                  which must be refunded.
   99-16
            $48,000,000      $48,000,000                            $13,300,000
   99-17    $11,000,000      $11,000,000                            $1,604,545* * This figure represents case
                                                                                  corrections that resulted in
                                                                                  receivables, annuitant payments,
                                                                                  employer tax credits and liabilities.


   00-16       $235,000        $235,000                               $235,846* *This figure represents returned
                                                                                  payments credited to debtor
                                                                                  accounts.
   04-06       $821,000        $821,000        $604,429    $5,564      $629,688
   04-10       $400,000        $400,000                                $761,151
   05-03     $1,800,000      $1,800,000*      $4,245,771 $59,379     $810,068** *This figure includes both
                                                                                  overpayments and
                                                                                  underpayments.

                                                                                  **This figure includes an actuarial
                                                                                  adjustment.
   05-06        $10,000         $10,000*                               $42,915* * This figure represents funds put
                                                                                  to better use that were for a payout
                                                                                  of underpaid Prompt Payment Act
                                                                                  interest.

   05-07     $1,070,000       $1,070,000                                          Recovery amounts are not yet
                                                                                  available.
   05-10     $2,600,000       $2,600,000                                          *This figure represents a one-time
                                                                                  estimate of receivables
   06-04       $257,000        $257,000                                           established for 05-10 and 06-04
                                           $311,000*                              combined. The agency will not be
                                                                                  tracking and/or reporting any
                                                                                  additional recoveries.
   06-05          $2,100         $2,100*                                          This figure represents a one time
                                                                                  payment identified by audit.
                                                                                  Management agreed that this
                                                                                  singular case was mishandled
                                                                                  under the rules for protected filing
                                                                                  date and decided to consider the
                                                                                  annuitant deterred from filing.
                                                                                  Accordingly there will not be a
                                                                                  related recovery.


   06-06       $200,000        $200,000                                 $5,065* *This represents both
                                                                                  overpayments and
                                                                                  underpayments.



Railroad Retirement Board – Office of Inspector General                                                             47
APPENDIX D – RRB MANAGEMENT REPORTS

          THE INFORMATION CONTAINED IN THIS SECTION WAS
                  PREPARED BY RRB MANAGEMENT
                     MANAGEMENT REPORT ON FINAL ACTION
                       ON AUDITS WITH DISALLOWED COSTS
               FOR THE 6-MONTH PERIOD ENDING SEPTEMBER 30, 2008


                                                                             Number of            Disallowed
                                                                            audit reports            costs

A.   Audit reports, with management decisions, on
     which final action had not been taken at the                                  1               $ 2,8351
     beginning of the period.

B.   Audit reports on which management decisions
     were made during the period.                                                  0                 $0

C.   Total audit reports pending final action during
     the period. (A + B)                                                           1               $ 2,835

D.   Audit reports on which final action was taken
     during the period.

     1.      Recoveries

             (a) Collections and offsets                                           0                 $0

             (b) Property                                                          0                 $0

             (c) Other                                                             0                 $0

     2.      Write-offs                                                            0                 $0

     3.      Total of 1 and 2                                                      0                 $0

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                          1               $ 2,835




     1.   Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”


Railroad Retirement Board – Office of Inspector General                                                        48
      APPENDIX D – CONTINUED
              MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
          WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
           FOR THE 6-MONTH PERIOD ENDING SEPTEMBER 30, 2008

                                                                          Number of                  Funds to be put
                                                                         audit reports                to better use
A.   Audit reports, with management decisions, on
     which final action had not been taken at the
     beginning of the period.                                                   6                     $ 3,426,0151

B.   Audit reports on which management decisions
     were made during the period.                                               0                     $     0

C.   Total audit reports pending final action during
     the period. (A + B)                                                        6                     $ 3,426,015

D.   Audit reports on which final action was taken
     during the period.

     1.    Value of recommendations implemented
           (completed)                                                         2                      $   353,9152

     2.    Value of recommendations that
           management concluded should not or
           could not be implemented (completed)                                 0                     $     0

     3.    Total of 1 and 2                                                    0                      $   353,915

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                      4                      $ 3,072,100



            1.   Comprised of the following amounts: $1,800,000 from Audit Report 05-03,
                 “Evaluation of the RRB’s Processing of Disability Earnings Cases,” $42,915 from
                 Audit Report 05-06, “Review of Compliance with the Prompt Payment Act,”
                 $1,070,000 from Audit Report 05-07, “Evaluation of Survivor Annuity Work
                 Deductions at the Railroad Retirement Board,” $311,000 from Audit Report 05-
                 10, “Retired Employee Work Deductions Prior to Full Retirement Age,” $2,100
                 from Audit Report 06-05, “Review of Compliance with Provisions of the Railroad
                 Retirement Act Governing the Initial Award of Benefits,” and $200,000 from Audit
                 Report 06-06, “Review of the Termination and Suspension of Benefits Paid
                 Under the Railroad Retirement Act.”

            2.   This includes $42,915 from Audit Report 05-06 and $311,000,000 from Audit
                 Report 05-10. At the time these audit reports were issued, the estimates of funds
                 put to better use were $10,000 and $2,600,000 respectively, and these figures
                 were contained in previous reports. After completing recommended actions, the
                 actual amount under 05-06 was $42,915, while the estimate for 05-10 was
                 revised to $311,000 based on one-time establishment of receivables.




      Railroad Retirement Board – Office of Inspector General                                  49
        APPENDIX D – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2008

                                                        Disallowed Funds to be put
Report                                        Date         costs    to better use       Reason action not completed
Review of Non-Priority Correspondence        3/13/97      NONE         NONE        The Office of Programs is using a new
Handling (97-09)                                                                   system implemented in FY08 to track
                                                                                   correspondence and should close the
                                                                                   remaining recommendation in FY09.

Information Systems Security (INFOSEC)       6/28/00      NONE          NONE       The agency has upgraded its security
Report                                                                             capabilities and hopes to close the last
                                                                                   open recommendation early in FY09.

Fiscal Year 2000 Financial Statement         2/23/01      NONE          NONE       While help desk procedures have been
Audit (01-03)                                                                      upgraded, the Bureau of Information
                                                                                   Services is still developing reports to
                                                                                   close the last open recommendation.

Site Security Assessment for the Office of   7/20/01      NONE          NONE       Information Services is addressing the
Inspector (Blackbird #1)                                                           last open recommendation by migrating
                                                                                   all applications to updated servers.

Review of Information Security at the         2/5/02      NONE          NONE       Information Services has closed 21
Railroad Retirement Board (02-04)                                                  recommendations and hopes to close
                                                                                   the remaining 7 in FY09.

Evaluation of the Self-Assessment            12/27/02     NONE          NONE       Information Services has completed
Process for Information System Security                                            one certification and accreditation
(03-02)                                                                            review with contractor support and
                                                                                   scheduled them for other major
                                                                                   systems in FY09.

Inspection of Unverified Records in the      3/20/03      NONE          NONE       Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                                  and is using a recently implemented
System (03-06)                                                                     tracking system to close the last two
                                                                                   recommendations early in FY09.

Review of the Railroad Retirement Board’s     9/8/03      NONE          NONE       Information Services is developing
PIN/Password System for On-Line                                                    procedures that should close the last
Authentication (03-09)                                                             open item early in FY09.

Review of the Systems Development Life        9/8/03      NONE          NONE       Information Services is using system
Cycle for End-User Computing (03-10)                                               and procedural changes to address
                                                                                   and close the remaining four items
                                                                                   early in FY09.

Review of Accounts Receivable                7/29/04      NONE          NONE       Sampling procedures currently under
Established Under the Railroad                                                     development by Programs should close
Unemployment Insurance Act (04-06)                                                 the last recommendation early in FY09.




        Railroad Retirement Board – Office of Inspector General                              50
        APPENDIX D – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2008
                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use       Reason action not completed
Review of Mainframe Access Controls at        9/7/04      NONE         NONE        Since a formalized quality assurance
the Application Level – RRB-Developed                                              program is cost prohibitive for these
Applications Controlled by ACF2 and                                                applications, Information Services is
IDMS (04-08)                                                                       developing alternative approaches.

Fiscal Year 2004 Evaluation of Information 9/30/04        NONE          NONE        Information Systems has closed eight
Security at the Railroad Retirement Board                                           of nine recommendations, and plans to
(04-11)                                                                             close the last one early in FY09.

Review of RRB Compliance with Federal         12/6/04     NONE          NONE        Information Services completed an
Laws and Regulations on Competitive                                                 initial feasibility study of sourcing
Sourcing (05-02)                                                                    information technology activities but
                                                                                    continues to investigate alternate
                                                                                    approaches and use contractor
                                                                                    support.

Evaluation of the RRB’s Processing of         2/11/05     NONE        $1,800,000    A review of almost 17,000 cases from
Disability Earnings Cases (05-03)                                                   2001 indicated most did not require
                                                                                    adjustment. Thus far, 606 cases have
                                                                                    been adjusted with the remaining 73
                                                                                    targeted for completion in FY09.

Review of Internal Control Over the           5/5/05      NONE          NONE        The Chief Actuary has developed a
Actuarial Projection Process (05-04)                                                workforce development plan, with
                                                                                    needed revisions expected to close the
                                                                                    remaining open item.

Review of Customer Service Performance        5/17/05     NONE          NONE        System changes being implemented
Measures for Timeliness of Initial Railroad                                         should address the three remaining
Retirement Annuity Payments (05-05)                                                 open recommendations in FY09.

Review of LAN, LAN Security Scan and          6/7/05      NONE          NONE        These contractor-prepared confidential
Web-based Applications (DSD)                                                        reports contained 45
                                                                                    recommendations, with two-thirds
                                                                                    closed thus far.

Evaluation of Survivor Annuity Work           7/14/05     NONE        $1,070,000    A major database conversion project
Deductions at the Railroad Retirement                                               delayed work on the last open item but
Board (05-07)                                                                       it should be completed early in FY09.

Review of Access Controls in the End-         7/18/05     NONE          NONE        Information Services has closed 11 of
User Computing General Support System                                               15 recommendations in this
(05-08)                                                                             confidential report. The remaining four
                                                                                    are targeted for completion in FY09.

Review of Internal Control Over Budget        9/6/05     $2,835         NONE        Fiscal Operations instituted procedures
Execution (05-09)                                                                   to close the two remaining items and
                                                                                    has submitted documentation of them
                                                                                    for review by the OIG.




        Railroad Retirement Board – Office of Inspector General                               51
        APPENDIX D – CONTINUED
                  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                    OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                              AS OF SEPTEMBER 30, 2008
                                                     Disallowed Funds to be put
Report                                      Date        costs    to better use        Reason action not completed
Fiscal Year 2005 Evaluation of Information 9/28/05     NONE         NONE        Information Services is developing
Security at the Railroad Retirement Board                                       policies and procedures needed to
(05-11)                                                                         close the remaining two items early in
                                                                                FY09.

Accuracy and Reliability of GPRA           1/30/06     NONE          NONE        Programs has closed three of the
Performance Measures: Timeliness of                                              seven recommendations, with the
Non-Disability Survivor Annuity Payments                                         remainder scheduled for completion in
(06-03)                                                                          FY09.

Review of Compliance with the Provisions   4/12/06     NONE          $2,100      Programs staff closed four of the five
of the Railroad Retirement Act Governing                                         recommendations. The remaining one
the Initial Award of Benefits (06-05)                                            is being reevaluated in light of ongoing
                                                                                 systems development and data
                                                                                 optimization projects.

Review of the Termination and              5/24/06     NONE         $200,000     Programming work on a referral system
Suspension of Benefits Paid Under the                                            is pending that should close out the
Railroad Retirement Act (06-06)                                                  remaining open recommendation.

Evaluation of the Railroad Retirement      8/14/06     NONE          NONE        Ongoing training as a supplement to a
Board’s Disaster Recover Plan (06-08)                                            completed tabletop exercise of the plan
                                                                                 should close the last item in FY09.

Review of Incident Handling and Reporting 8/24/06      NONE          NONE        Information Services implemented two
at the Railroad Retirement Board (06-09)                                         recommendations, with the remaining
                                                                                 eight slated for completion in FY09.

Fiscal Year 2006 Financial Statement       2/9/07      NONE          NONE        The agency has closed 19 of the 20
Audit (07-01)                                                                    recommendations, with action on the
                                                                                 final one to be verified as part of the
                                                                                 FY08 financial statement audit.

Audit of the DAISY/CHICO Component         3/9/07      NONE          NONE        Action on two of the remaining three
Application of the RRA Benefit Payment                                           open recommendations requires
Major Application System (07-02)                                                 programming changes, with the last
                                                                                 one dependent on cooperation with
                                                                                 another agency on Medicare premium
                                                                                 collection.

Audit of the State Wage Match Data         3/28/07     NONE          NONE        Programs plans to complete action to
Transmission Controls (07-04)                                                    address the six open recommendations
                                                                                 early in FY09.

Evaluation of the Railroad Retirement      7/30/07     NONE          NONE        Of the 15 recommendation, 4 have
Board’s Privacy Program (07-06)                                                  been closed with the remainder
                                                                                 targeted for completion during FY09.




        Railroad Retirement Board – Office of Inspector General                            52
        APPENDIX D – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2008
                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use       Reason action not completed
Audit of Federal Income Taxes Withheld        7/30/07     NONE         NONE        Three of the six recommendations
from Railroad Retirement Annuities (07-                                            have been closed, with the rest
07)                                                                                targeted for completion in FY09.

Fiscal Year 2007 Evaluation of Information 9/27/07        NONE         NONE       Work on the eight recommendations is
Security at the Railroad Retirement Board                                         scheduled for completion in FY09.
(07-08)

Audit of Controls to Safeguard Sensitive      9/27/07     NONE         NONE       Of the 22 recommendations, 1 has
Personally Identifiable Information (07-09)                                       been implemented with work on most
                                                                                  of the remaining ones to be finished in
                                                                                  FY09.




        Railroad Retirement Board – Office of Inspector General                             53
APPENDIX E
REPORTING REQUIREMENTS

INSPECTOR GENERAL REQUIREMENTS ................                                  PAGE

Section 4(a)(2) – Review of Legislation and Regulations                                35


Section 5(a)(1) – Significant Problems, Abuses and Deficiencies        4, 12 – 15, 35 – 37


Section 5(a)(2) – Recommendations With Respect to Significant
Problems, Abuses and Deficiencies                                       12 –15, 35 – 37


Section 5(a)(3) – Prior Significant Recommendations Not Yet
Implemented                                                                    4, 12 – 15


Section 5(a)(4) – Matters Referred to Prosecutive Authorities                           8


Section 5(a)(5) – Summary of Report Made to Agency Head                           35 – 37


Section 5(a)(6) – List of Audit Reports                                                43


Section 5(a)(7) – Summary of Each Significant Report                         3 – 4, 9 – 18


Section 5(a)(8) – Statistical Tables on Management Decisions on
Questioned Costs                                                                       44


Section 5(a)(9) – Statistical Tables on Management Decisions on
Recommendations That Funds Be Put to Better Use                                        45




Railroad Retirement Board – Office of Inspector General           54
APPENDIX E - CONTINUED
REPORTING REQUIREMENTS

Inspector General Requirements Continued

Section 5(a)(10) – Summary of Each Audit Report Over 6 Months Old
or Which No Management Decision Has Been Made                                          None


Section 5(a)(11) – Description and Explanation for Any Significant
Revised Management Decision                                                            None


Section 5(a)(12) – Information on Any Significant Management
Decisions With Which the Inspector General Disagrees                                   None



Management Requirements

Section 5(b)(1) – Comments Deemed Appropriate                              Transmittal Letter


Section 5(b)(2) –Statistical Table on Final Action on Disallowed
Costs                                                                                     48


Section 5(b)(3) – Statistical Table on Final Action to Put Funds to
Better Use                                                                                49


Section 5(b)(4) – Statement on Audit Reports With Final
Action Pending                                                                       50 – 53




Railroad Retirement Board – Office of Inspector General               55
APPENDIX F
ACRONYMS

ACE – Affirmative Civil Enforcement


BIS – Bureau of Information Services


CMS – Centers for Medicare and Medicaid Services


FISMA – Federal Information Security Management Act of 2002


FY – Fiscal Year


GSA – General Services Administration


HHS – OIG – U.S. Department of Health and Human Services –
Office of Inspector General


IG – Inspector General


NIST – National Institute of Standards and Technology


NTFS – National Toll Free Telephone Service

OA – United States Railroad Retirement Board, Office of Inspector
General – Office of Audit


OI – United States Railroad Retirement Board, Office of Inspector
General – Office of Investigations


OIG – United States Railroad Retirement Board, Office of Inspector
General


OMB – Office of Management and Budget



Railroad Retirement Board – Office of Inspector General              56
APPENDIX F - CONTINUED
ACRONYMS

PII – Personally Identifying Information


PSC – Program Safeguard Contractor


RRA – Railroad Retirement Act


RRB – Railroad Retirement Board


RUIA – Railroad Unemployment Insurance Act


SI – Sickness Insurance


SSA – Social Security Administration


UI – Unemployment Insurance


USAO – United States Attorney’s Office


ZPIC – Zoned Program Integrity Contractors




Railroad Retirement Board – Office of Inspector General   57
APPENDIX G
LEGAL
CITATIONS


Federal:
Consolidated Appropriations Act, 2008 – P.L. 110-161

E-Government Act of 2002 – 45 U.S.C. § 3501

False Claims Act – 31 U.S.C. §§ 3729 - 3733

False Statements – 18 U.S.C. § 1001 et. seq. and 45 U.S.C. § 231(l)

Federal Information Security Management Act of 2002 – 44 U.S.C.
§ 3531, et. seq.

Freedom of Information Act – 5 U.S.C. § 552

Health Insurance Portability and Accountability Act of 1996 –
P.L. 104 – 191

Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

Inspector General Act Amendments of 1988 – 5 U.S.C. App. 3

Prompt Payment Act – P.L. 97-177, 31 U.S.C. § 3901 et. seq.

Railroad Retirement Act – 45 U.S.C. § 231, et. seq.

Railroad Retirement Solvency Act of 1983 – P.L. 98-76

Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

Social Security Act – 42 U.S.C. § Ch. 7

Theft of Public Money/Government Funds – 18 U.S.C. § 641




Railroad Retirement Board – Office of Inspector General           58
                         REPORT

         FRAUD, WASTE AND ABUSE




                Call the OIG Hotline:
                       1-800-772-4258

               E-mail: Hotline@oig.rrb.gov

  The OIG cannot ensure confidentiality to persons who provide
information via e-mail. Do not send information by e-mail that you
                 do not want a third party to read.

             Write: RRB-OIG Hotline Officer
                   844 N. Rush Street
              Chicago, Illinois 60611-2092
